No. 20-400
INTHE

hpmnt C!tnurt nf t!Jt lttttth &tatts
JAMES AVERY,JR.,

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF SERVICE

I, Mark C. Fleming, a member of the bar of this Court, hereby certify that, on
this 30th day of December, 2020, all parties required to be served have been served
copies of the Reply Brief for Petitioner in this matter by overnight courier to the
address below.
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, DC 20530--0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

a>tP

MARK C. FLEMING
WILMER CUTLER PICKERING
HALE AND DORR LLP

60 State Street
Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhale.com

